CONTROLS OVER AMMUNITION WITHIN THE OFFICE OF
SECURE TRANSPORTATION




               U.S. Department of Energy
               Office of Inspector General
               Office of Inspections and Special Inquiries




 Inspection Report
 Controls Over Ammunition Within the
 Office of Secure Transportation




 INS-O-07-02                                     July 2007
CONTROLS OVER AMMUNITION WITHIN THE OFFICE OF
SECURE TRANSPORTATION




TABLE OF
CONTENTS

              OVERVIEW

              Introduction and Objective          1

              Observations and Conclusions        1


              DETAILS OF FINDINGS

              Background                          3

              Sensitive Property                  3

              Ammunition Requests                 4

              Ammunition Issue and Receipt        4

              Transportation of Ammunition        5

              Control of Ammunition               6

              Armor Piercing Ammunition           7


              RECOMMENDATIONS                     8


              MANAGEMENT AND INSPECTOR COMMENTS   8


              APPENDICES

              A. Scope and Methodology            9

              B. Management Comments              10
Overview

INTRODUCTION       The National Nuclear Security Administration’s (NNSA’s) Office
AND OBJECTIVE      of Secure Transportation (OST) conducts transportation missions
                   supporting national security, including the safe and secure
                   transportation of nuclear weapons, weapon components, and
                   special nuclear material. OST is headquartered in Albuquerque,
                   New Mexico, and has three commands, which are located in: Oak
                   Ridge, Tennessee; Amarillo, Texas; and Albuquerque. OST
                   performs its mission through the use of a paramilitary force of
                   approximately 350 Federal Agents. These Agents are trained,
                   equipped, and armed to prevent the theft, sabotage, or takeover of
                   protected materials by unauthorized persons. In addition, NNSA
                   has a fleet of aircraft housed on Kirtland Air Force Base in
                   Albuquerque that supports the OST mission.

                   OST provides weapons training for its Federal Agents at firing
                   ranges throughout the United States. In December 2005, OST
                   provided training on the new SR-25 .308 caliber sniper rifle at a
                   private firing range in Kingsville, Texas. The Office of Inspector
                   General received allegations regarding internal control weaknesses
                   concerning the accountability and transportation of ammunition
                   associated with this training exercise. We were told that an officer
                   from OST’s Agent Operations Eastern Command (AOEC) in Oak
                   Ridge had taken 3,400 rounds of ammunition from the exercise
                   without proper authorization and that this ammunition had been
                   transported on board NNSA aircraft without being declared.

                   We initiated an inspection to review the facts and circumstances of
                   the allegations and to examine related internal controls over
                   ammunition within OST. We note that an OST Inquiry Team also
                   initiated a review into the incident and subsequently expanded its
                   review to examine controls over ammunition OST-wide.

OBSERVATIONS AND   Our inspection substantiated the allegations, and we concluded that
CONCLUSIONS        OST did not have adequate internal controls over its ammunition.
                   Specifically, we found that OST did not:

                       • Categorize and control ammunition as sensitive property, as
                         required by Department policy;

                       • Follow requirements for requesting ammunition for
                         activities other than organized, approved training;

                       • Execute required documentation for the issuance and
                         receipt of ammunition;



Page 1                                      Controls Over Ammunition Within the
                                            Office of Secure Transportation
             • Ensure that ammunition transported on board NNSA
               aircraft by OST personnel was declared, which DOE policy
               identifies as a serious safety violation;

             • Ensure that ammunition in the possession of Federal
               Agents was properly controlled; and,

             • Ensure the accountability of armor piercing ammunition.

         In September 2006, OST issued a report on its review of
         ammunition accountability, which incorporated an April 2006
         report on AOEC’s handling of the 3,400 rounds of ammunition.
         The OST report concluded that there were systemic ammunition
         accountability problems throughout OST. The report found that
         OST was missing significant quantities of ammunition, that there
         was gross negligence in the accounting and inventory of the issued
         ammunition, and that some personnel who were responsible for
         safeguarding their assigned ammunition failed to do so. The OST
         report contained several recommendations and corrective actions,
         to include changes to policy and operational procedures. Some of
         the specific findings in OST’s report related to and were consistent
         with certain of the findings reported herein.




Page 2                                    Observations and Conclusions
Details of Findings

BACKGROUND            Department of Energy (DOE) Order 580.1, “Department of Energy
                      Personal Property Management Program,” identifies the standards,
                      practices, and performance expectations for the management of
                      personal property owned by DOE. The Order applies to all DOE
                      elements with personal property management responsibilities,
                      including NNSA, and states that “a list of those items of personal
                      property that are considered sensitive must be developed and
                      maintained by each DOE element.” The Order goes on to state:

                            The list must consist of – items, regardless of value, that
                            require special control and accountability because of
                            susceptibility to unusual rates of loss, theft, or misuse or
                            due to national security and export control considerations.
                            Items include, but are not limited to, weapons,
                            ammunition [emphasis added], explosives . . . .

                      Each facility must have written procedures for the management of
                      sensitive items. The procedures are to include the use of
                      memorandum receipts or custody documents at the time an item is
                      assigned or when there is a change in custody. These procedures
                      must also establish custodial responsibilities describing the
                      requirements for appropriate physical and administrative controls,
                      especially for items assigned for general use within an
                      organization, and reporting changes in custody. A physical
                      inventory of sensitive items is required to be conducted annually.

SENSITIVE PROPERTY    We found that OST did not categorize and control ammunition as
                      sensitive property, as required by DOE Order 580.1. OST’s
                      “Standard Operating Procedures (T7) for Property Management”
                      defines a sensitive item as “Personal property, regardless of value,
                      which is susceptible to theft, appropriation for personal use, or is
                      readily convertible to cash, and is specified in the sensitive items
                      list (Tab 3, Annex J).” However, the sensitive items list at Tab 3
                      only includes “Firearms, Laptop/palmtop (pda) computers, Tape
                      recorders, Cameras (still, digital, video), Night vision devices
                      (NVDs), and TV/VCR combination units.”

                      While OST centrally controls those items it has designated as
                      sensitive property, OST’s “Standard Operating Procedures (T5) for
                      Munitions Management System,” which addresses the
                      accountability of ammunition, does not require centralized control
                      of ammunition. For example, OST sensitive items are required to
                      be recorded and tracked in OST’s centralized property records
                      system, and discrepancies during an annual inventory require an
                      inventory reconciliation report that is reviewed, approved, and



Page 3                                                              Details of Findings
                    certified by the OST Property Management Officer. However,
                    OST’s standard operating procedures for ammunition management
                    allow ammunition to be listed in separate databases maintained at
                    each OST section, and annual inventory discrepancies are only
                    reported to Section Chiefs or support contractor property managers.

                    As stated previously, OST’s September 2006 report on ammunition
                    found significant and systemic weaknesses in the control of OST
                    ammunition. In addition, during a recent Office of Inspector General
                    investigation, it was noted that an OST site that had established an
                    “amnesty box” to promote the return of equipment had thousands of
                    rounds of ammunition returned. We believe that, if OST controlled
                    ammunition as a sensitive item, a number of OST’s problems with
                    ammunition controls could have been prevented or mitigated.

AMMUNITION          We found that OST did not follow requirements for requesting
REQUESTS            ammunition for activities other than organized, approved training.
                    OST’s “Standard Operating Procedures (T5) for Munitions
                    Management System” states that ammunition requested for use
                    during other than organized, approved training requires prior written
                    approval on SB Form 100, “TSD Ammunition/Pyrotechnic Issue
                    Request,” at least 24 hours prior to the required issue time.
                    Authorizing signatures are required by the Chief, Training/Exercise
                    Operations Section; an OST Support Branch logistic specialist; the
                    Chief of the OST Support Branch; or an OST Section Chief.

                    Upon completion of the December 2005 training at the Kingsville,
                    Texas, firing range, 3,400 of the 15,000 rounds of .308 caliber
                    ammunition issued for the training were not expended. On
                    December 9, 2005, an AOEC officer from Oak Ridge was allowed
                    to take possession of the 3,400 rounds after only signing a
                    “Munitions Bulk Issue and Return Form” that indicated the
                    ammunition was for “Road Use.” Contrary to OST policy, the SB
                    Form 100 was not used and there was no evidence of approval of
                    the transaction by the Chief, Training/Exercise Operations Section;
                    an OST Support Branch logistic specialist; the Chief of the OST
                    Support Branch; or an OST Section Chief.

AMMUNITION          We found that OST did not execute required documentation for the
ISSUE AND RECEIPT   issuance and receipt of ammunition. As stated previously, DOE
                    Order 580.1 requires the use of memorandum receipts or custody
                    documents at the time an item is assigned or when there is a
                    change in custody. The AOEC officer who took possession of the
                    3,400 rounds of .308 caliber ammunition on December 9, 2005,
                    told us that he issued 200 rounds to each of 16 AOEC Federal



Page 4                                                            Details of Findings
                 Agents who participated in the training and retained the remaining
                 200 rounds. However, the Agents did not sign receipts for the
                 ammunition, nor was there a record of change in custody. In
                 addition, AOEC’s local “Ammunition Accounting Standard
                 Operating Procedures” states that each Federal Agent will sign a
                 consolidated “AOEC OSB-69 form” to record all assigned
                 ammunition, but this also was not done. This finding and the
                 previous finding were consistent with a general finding in the OST
                 report that the ammunition was drawn and issued for road use
                 contrary to applicable procedures and policies.

TRANSPORTATION   We found that OST did not ensure that ammunition transported
OF AMMUNITION    on board NNSA aircraft by OST personnel was declared, which
                 DOE policy identifies as a serious safety violation. NNSA’s
                 “OST-AVN-140.0, TRANSPORT OF HAZARDOUS
                 MATERIALS MANUAL,” requires the declaration of ammunition
                 carried on board NNSA aircraft. Appendix C contains the NNSA,
                 Office of Transportation Safeguards, Shippers Declaration for
                 Dangerous Goods (Example), which states that:

                       This form declares that certain hazardous materials
                       will accompany NNSA Nuclear Couriers, in the form
                       of ammunition, smoke grenades, flares and explosive
                       rounds in the performance of their mission.

                 The Shippers Declaration also states that:

                       Failure to comply in all respects with the applicable
                       Regulations, DOE and Sandia National Laboratories
                       Packaging Procedures and NNSA Aviation Safety rules
                       is a serious safety violation.

                 The Shippers Declaration concludes with a statement, which
                 is to be signed by the NNSA Office of Secure Transportation
                 senior onsite official, that:

                       I hereby declare that the contents of this consignment are
                       fully and accurately described above by the proper
                       shipping name, and are properly packaged for shipment
                       aboard a U.S. Government aircraft in compliance with
                       NNSA Office of Secure Transportation policy.

                 On December 10, 2005, an NNSA DC-9 was used to transport the
                 AOEC officer and 16 other AOEC Federal Agents from Corpus
                 Christi, Texas, to Knoxville, Tennessee. We were told that they



Page 5                                                        Details of Findings
             carried back the 3,400 rounds of .308 caliber ammunition with their
             personal gear and weapons. We determined, though, that the 3,400
             rounds were not declared. The AOEC officer acknowledged to us that
             he had made a mistake by not declaring the ammunition. This finding
             was consistent with an OST Inquiry Team finding, although the OST
             report did not identify that this was a serious safety violation.

CONTROL OF   We found that OST did not ensure that ammunition in the
AMMUNITION   possession of Federal Agents was properly controlled. OST’s
             “Standard Operating Procedures (T7) for Property Management”
             requires that ammunition be accounted for and controlled by the
             “holding entity.” However, after the AOEC officer and the 16
             other Federal Agents took possession of the .308 caliber
             ammunition, they failed to report the acquisition of this
             ammunition or turn the ammunition in to the designated official
             within the holding entity in a timely manner. This ammunition,
             which had not been approved by OST management for road use,
             was outside the control and accountability of OST for 45 days,
             until most of it was turned in by January 23, 2006.

             In addition, the Federal Agents failed to store the ammunition in the
             manner required by “Standard Operating Procedures (T5) for
             Munitions Management System.” It states that “ . . . with the
             exception of munitions issued to support training scenarios which can
             be temporarily stored in ‘ready use’ lockers, all munitions assigned to
             OST will be stored in OST munitions storage areas.” We were told
             that during the period from December 9, 2005, to January 23, 2006,
             some of this ammunition was stored at Agents’ private residences and
             some was kept in their lockers at the Oak Ridge command.

             Further, although a Munitions Issue Form executed on January 23,
             2006, reflected that 3,400 rounds of ammunition were turned in to
             the OST armory, a subsequent inventory by the OST Inquiry Team
             determined that some of the 3,400 rounds were missing. We were
             told that some of the ammunition was not returned in its original
             packaging. For example, some rounds were loose in plastic bags. In
             addition, we were told that some of the ammunition turned in was
             not the same as issued—it was a different manufacturer or type or
             was corroded (indicating aged ammunition). We were told that, as
             of March 2007, a total of 119 rounds were still missing.

             We noted that OST’s report of inquiry had similar findings, although
             the extended period of time over which these conditions existed (45
             days) was not specifically identified, nor was it specifically identified
             that some of the ammunition was stored at Agents’ residences.



Page 6                                                      Details of Findings
ARMOR PIERCING   We found that OST did not ensure the control and accountability
AMMUNITION       of armor piercing ammunition, with some OST Federal Agents
                 apparently attempting to conceal the fact that armor piercing
                 rounds were lost, missing, or stolen.

                 On at least two occasions, OST has had inventory shortages of armor
                 piercing ammunition. It appears that Agents attempted to cover this up
                 by substituting ammunition altered to look like armor piercing rounds.
                 In April 2006, during a 100 percent inventory of ammunition at the
                 AOEC, OST identified two rounds of ammunition that had the tips
                 colored black to make them appear to be armor piercing rounds.
                 These rounds had been turned in by an unknown Federal Agent as part
                 of the armor piercing ammunition he had been issued for mission
                 purposes. This incident was not addressed in OST’s September 2006
                 report, but the report did identify a similar situation at the Agent
                 Operations Central Command, where 27 rounds of 5.56 mm ball were
                 found colored black on their tips to give the appearance of armor
                 piercing rounds. The perpetrator was not identified.

                 DOE policy considers armor piercing ammunition to be “specialty
                 rounds,” which require special reporting when they are determined
                 to be lost, missing, or stolen. DOE M 470.4-3, “Protective Force,”
                 which applies to NNSA, states that:

                     After conducting a preliminary inquiry involving an
                     indication of an unaccounted for, missing, or stolen
                     firearm, a significant quantity of ammunition (in excess of
                     100 rounds), or any amount of pyrotechnics, explosives; 40
                     mm, .50 caliber AP [armor piercing], or any other
                     specialty rounds [emphasis added]; PF [protective force]
                     management must immediately report such a shortage to
                     the DOE cognizant security authority, who must report to
                     the Office of Security within 24 hours. The DOE cognizant
                     security authority must then prepare and transmit an
                     Incident of Security Concern (see DOE M 470.4-1).

                 We determined that the 27 rounds of 5.56 mm ball were reported
                 in a September 2006 OST “Report of Security Incident/Infraction.”
                 However, we did not find any evidence that the two missing
                 rounds from April 2006 were reported in accordance with DOE M
                 470.4-3. In neither case was there any indication that action was
                 taken against any Agent for attempting to conceal the missing
                 specialty rounds. We noted that OST’s procedures did not include
                 examining ammunition as Agents turned it in to ensure it was what
                 it was supposed to be.



Page 7                                                        Details of Findings
RECOMMENDATIONS   We recommend that the Assistant Deputy Administrator for Secure
                  Transportation ensures that:

                  1. OST policies and procedures identify ammunition as sensitive
                     property, as required by DOE Order 580.1.

                  2. Requirements for requesting ammunition for activities other
                     than organized, approved training are followed.

                  3. Documentation for the issuance and receipt of ammunition is
                     prepared and maintained as required by DOE and OST policy.

                  4. Ammunition transported on board NNSA aircraft is declared,
                     as required, to avoid future serious safety violations.

                  5. Ammunition in possession of Federal Agents is properly
                     controlled and stored.

                  6. All armor piercing ammunition is properly controlled and
                     accounted for, that all missing armor piercing rounds are
                     appropriately reported, and that appropriate action is taken
                     against any Federal Agent who attempts to conceal that armor
                     piercing rounds are missing.

MANAGEMENT        In comments on a draft of this report, NNSA agreed with the report
AND INSPECTOR     and the corresponding recommendations. NNSA identified
COMMENTS          corrective actions that have been taken. We will review the
                  specific actions taken by management to ensure they adequately
                  address all of our recommendations. NNSA’s comments are
                  included in their entirety at Appendix B.




Page 8                                                   Recommendations
                                        Management and Inspector Comments
Appendix A

SCOPE AND     The majority of the fieldwork for this inspection was conducted
METHODOLOGY   from March through December 2006. The inspection included
              reviewing the process used by OST to control, account for, and
              transport ammunition. The inspection also included:

              •   Review of ammunition issue and receipt documentation;

              •   Review of ammunition accountability records;

              •   Review of OST ammunition transportation criteria;

              •   Review of DOE directives on ammunition; and,

              •   Interviews of OST officials and Federal Agents.

              This inspection was conducted in accordance with the “Quality
              Standards for Inspections” issued by the President’s Council on
              Integrity and Efficiency.




Page 9                                               Scope and Methodology
Appendix B




Page 10      Management Comments
                                                                    IG Report No. INS-O-07-02


                           CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of its
products. We wish to make our reports as responsive as possible to our customers’ requirements,
and, therefore, ask that you consider sharing your thoughts with us. On the back of this form,
you may suggest improvements to enhance the effectiveness of future reports. Please include
answers to the following questions if they are applicable to you:

1. What additional background information about the selection, scheduling, scope, or
   procedures of the inspection would have been helpful to the reader in understanding this
   report?

2. What additional information related to findings and recommendations could have been
   included in the report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report’s overall
   message clearer to the reader?

4. What additional actions could the Office of Inspector General have taken on the issues
   discussed in this report which would have been helpful?

5. Please include your name and telephone number so that we may contact you should we have
   any questions about your comments.


Name                                          Date __________________________

Telephone                                     Organization ____________________


When you have completed this form, you may telefax it to the Office of Inspector General at
(202) 586-0948, or you may mail it to:

                               Office of Inspector General (IG-1)
                                     Department of Energy
                                    Washington, DC 20585

                                  ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact Judy Garland-Smith at (202) 586-7828.
The Office of Inspector General wants to make the distribution of its reports as customer friendly
and cost effective as possible. Therefore, this report will be available electronically through the
                                Internet at the following address:

               U.S. Department of Energy Office of Inspector General Home Page

                                     http://www.ig.energy.gov

   Your comments would be appreciated and can be provided on the Customer Response Form
                                  attached to the report.
